11l 'vl/OU        Wy)    :jJ.   rI A o     IUL
                                         Aooa              u.                             * ..*                 -




    DOE F 13218


    United States Government                                                            Department of Eney


    memorandum
              DATE:     November 28, 2006                              Audit Report Number: OAS-L-07-03
       REPLY TO
        ATT OF:         IG-32 (A06PR022)
        SUBJECT:        Audit of the "Department of Energy's Carbon Sequestration Program"

                  TO:   Assistant Secretary, Office of Fossil Energy

                        INTRODUCTION AND OBJECTIVE

                        Carbon sequestration is the capture and storage of carbon dioxide and other
                        greenhouse gases that would otherwise be emitted into the atmosphere. The
                        Department of Energy's Carbon Sequestration Prograr (Program) seeks to move
                        sequestration technologies forward in order that their potential can be realized and
                        they can play a major role in reducing greenhoue gas emissions. The Program's
                        overarching goal is to develop by 2012 fossil ful conversion systems that offer
                        90 percent carbon dioxide capture with 99 percent storage permanence at less than a
                        10 percent increase in the cost of energy services.

                        The Program is managed within the Office of Fossil Energy and implemented through
                        the National Energy Technology Laboratory (NETL). The Program directly
                        implements the President's Global Climate Change Initiative, issued in March 2001, as
                        well as several National Energy Policy goals targeting the development of new
                        technologies. It also supports the goals of the Framework Convention on Climate
                        Change and other international collaborations to reduce greenhouse gas intensity and
                        greenhouse gas emissions. The Program's budget for Fiscal Year 2006 was about $67
                        million. The objective of our audit was to determine whether the Program was making
                        progress toward achieving its goals and Program funds were used for their intended
                        purpose.

                        CONCLUSIONS AND OBSERVATIONS

                        We found that the Program was making progress toward achieving its goals and funds
                        were used for their intended purpose. However, during the audit, we observed some
                        instances of cost growth and schedule slippage for research, development, and
                        demonstration (RD&D) projects under the Program. In addition, NETL project
                        managers did not always document their monitoring of progress and cost against
                        critical project milestones (critical milestones) on RD&D projects. RD&D projects
                        are awarded to acquire scientific, technical, and engineering knowledge to work
                        towards the overall objective of achieving commercialization of advanced
                        technologies. Schedule slippage and cost overruns could negatively impact the
                        Program's ability to meet its carbon sequestration goals.
II.'I,/UO
    XV      U   ±o:J.    rAA    ooO   4. Lo 0-       *.'                                                       -




                        NETL has recognized the need to improve project oversight by documenting
                        critical milestones for RD&D projects. Beginning in Fiscal Year 2006, NETL
                        implemented actions to include critical milestones in RD&D project objectives
                        and track actual progress against these milestones in quarterly progress reports.
                        However, NETL does not estimate or track the project costs associated with the
                        critical milestones. Currently, project costs are only estimated and reported each
                        quarter in the aggregate for the entire project. .By estimating and tracking both
                        schedule and costs for critical milestones on the same basis, the Department's
                        project managers will be better able to evaluate true project cost and schedule
                        performance. Therefore, we suggest that NETL further enhance its
                        RD&D project oversight by requiring awardees to estimate and report on project
                        costs concurrent with critical milestones. Monitoring the cost of critical
                        milestones will help identify potential cost overruns that could impede Program
                        progress.

                        SCOPE AND METHODOLOGY

                        The audit was performed from April through August 2006, at Department of
                        Energy Headquarters in Washington, D.C.; NETL in Pittsburgh, Pennsylvania;
                        and, a regional partnership in Norcross, Georgia. The audit scope included
                        Program activities for Fiscal Years 2003 through 2006 and specific RD&D
                        projects funded by the Program that were active or in the closeout process. To
                        accomplish the audit objective, we:

                            *    Determined whether selected projects were properly awarded, monitored,
                                 and meeting work scope and cost sharing requirements;

                            *    Reviewed prior audits, reviews, and studies related to the Program; and,

                            * Assessed whether Program funds were being used for their intended
                              purpose.

                        The audit was performed in accordance with generally accepted Government
                        auditing standards for performance audits and included tests of internal controls
                        and compliance with laws and regulations to the extent necessary to satisfy the
                        audit objective. Because our review was limited, it would not necessarily have
                        disclosed all internal control deficiencies that may have existed at the time of our
                        audit. We assessed performance measures established under the Government
                        Performanceand Results Act of1993 and determined that the Office of Fossil
                        Energy had established performance measures to move carbon sequestration
                        technologies forward so that their potential can be realized. We relied on
                        computer-processed data to accomplish the audit objective. When appropriate,
                        we performed limited test work of data reliability during our audit and determined
                        that we could rely on the computer-processed data. The Office of Fossil Energy
                        waived the exit conference.



                                                           2
-11.   '   </UU   WwU   Lo:»;»    rAa   000   A.iL             Uoa                            **J*   -S




                                 Because no formal recommendations are being made in this letter report, a formal
                                 response is not required. We appreciate the cooperation of your staff and the
                                 NETL staff




                                                                          redrick G. Pieper, Director
                                                                         Energy, Science and Environmental
                                                                          Audits Division
                                                                         Office of Inspector General

                        cc:      Chief of Staff
                                 Under Secretary of Energy
                                 Under Secretary for Science
                                 Director, NETL
                                 Team Leader, Audit Liaison Team, CF-1.2
                                 Audit Liaison; Office of Fossil Energy, FE-3




                                                                     3
